                  U.S. DEPARTMENT OF LABOR
              EVALUATION OF GRANT CLOSEOUT
                    PRACTICES APPLIED TO
            JOB TRAINING PARTNERSHIP ACT GRANTS

          GRANTS AWARDED TO THE STATE OF TEXAS

            INDEPENDENT ACCOUNTANTS= REPORT
           ON APPLYING AGREED-UPON PROCEDURES




                 JULY 1, 1997 THROUGH JUNE 30, 2000




R. Navarro & Associates, Inc. prepared this report under contract to the U.S.
Department of Labor, Office of Inspector General, and by acceptance it becomes a
report of the Office of Inspector General.



                        __________________________________________
                        Assistant Inspector General for Audit
                        U.S. Department of Labor




                                                    Report No.: 04-03-003-03-340
                                                    Date Issued: May 5, 2003

                   R. NAVARRO & ASSOCIATES, INC.
                                                   TABLE OF CONTENTS



ACRONYMS .................................................................................................................................iii

INDEPENDENT ACCOUNTANTS= REPORT ON APPLYING AGREED-UPON
PROCEDURES............................................................................................................................... 1

SUMMARY OF FINDINGS .......................................................................................................... 2

BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY .......................................... 3

          BACKGROUND ................................................................................................................ 3

          OBJECTIVES, SCOPE AND METHODOLOGY ............................................................. 3

PROCEDURES AND FINDINGS.................................................................................................. 4

EXHIBIT I – COMPLETE TEXT OF THE STATE OF TEXAS’ RESPONSE ............................ 7




                                                                     ii
                                  ACRONYMS



CFR    Code of Federal Regulations
DOL    U.S. Department of Labor
ETA    Employment and Training Administration
FSR    Financial Status Report
FY     Fiscal Year
JTPA   Job Training Partnership Act
OIG    Office of the Inspector General
OMB    Office of Management and Budget
PY     Program Year
SFY    States Fiscal Year
SEFA   Schedule of Expenditures of Federal Awards
TWC    Texas Workforce Commission
WIA    Workforce Investment Act




                                         iii
Mr. Elliot P. Lewis
Assistant Inspector General for Audit
Office of Inspector General
U.S. Department of Labor

                       INDEPENDENT ACCOUNTANTS= REPORT
                      ON APPLYING AGREED-UPON PROCEDURES

We have performed the procedures enumerated in the “Procedures and Findings” section of this
report. The U.S. Department of Labor (DOL), Office of Inspector General (OIG), agreed to these
procedures. We completed the procedures solely to assist OIG in evaluating the State of Texas’
closeout practices for Job Training Partnership Act (JTPA) grants awarded by the DOL
Employment and Training Administration (ETA) from July 1, 1997 through June 30, 2000.

Management of the State of Texas is responsible for closing JTPA grants in accordance with
applicable regulations and requirements established by ETA. ETA is responsible for processing
and certifying grant closure, and recording final obligation, expenditure and payment information
in the DOL=s general ledger.

This agreed-upon procedures engagement was performed in accordance with the attestation
standards established by the American Institute of Certified Public Accountants, and Government
Auditing Standards issued by the Comptroller General of the United States. The sufficiency of
these procedures is solely the responsibility of your office as the specified user of the report.
Consequently, we make no representation regarding the sufficiency of the procedures performed
either for the purpose for which this report has been requested or for any other purpose.

The results of our procedures are described in the “Procedures and Findings” section of this
report.

We were not engaged to, and did not, perform an examination, the objective of which would be
the expression of an opinion on the accompanying information obtained from the respective
entities. Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that would have been reported to you.

This report is intended solely for the information and use of the DOL, OIG, and is not intended to
be, and should not be used, by anyone other than the specified party.


March 15, 2002
                                  SUMMARY OF FINDINGS


The State of Texas submitted its Job Training Partnership Act (JTPA) closeout package to the
U.S. Department of Labor (DOL), Employment and Training Administration (ETA) on
November 2, 2001, after requesting and receiving an extension through October 31, 2001. We
obtained the final JTPA expenditures reported on the final closeout report, and found that the
expenditures reported reconciled to the State’s accounting records. In addition, the final
expenditures reported were reasonable based on amounts previously reported on final Financial
Status Reports (FSRs).

The JTPA program was audited as a major program in the State’s single audits for State Fiscal
Year (SFY) 1999 and SFY 2000. The SFY 2000 single audit report included one unresolved
(prior year) finding pertaining to the JTPA program. In this finding, the Texas Workforce
Commission was reported as unable to find certain equipment purchased with Federal funds by
the University of Texas at El Paso, and that other property was not tagged. The auditors
indicated that they would follow up on the finding in the subsequent year.

We visited three subrecipients, and found that final expenditures reported to the State reconciled
to the subrecipients’ accounting records.


State of Texas’ Response

The Texas Department of Job and Family Services provided a written response to our draft
report, dated February 27, 2003, which is included in its entirety at Exhibit I. Texas agreed with
the information presented in the report.




                                                 2
             BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY


Background

The JTPA was enacted in 1982 to provide job training programs which would afford
disadvantaged youth and adults with the training necessary to obtain productive employment.
The JTPA program was repealed on June 30, 2000, when ETA implemented a successor
program, authorized by the Workforce Investment Act. The closeout of active JTPA grants
began in July 1999, with final closeouts due no later than December 31, 2000. Unspent funds
from the PY 1998 and PY 1999 JTPA State grants were authorized for transition into the WIA
program.

All JTPA closeout information is sent to the DOL, ETA, Office of Grant and Contract
Management, Division of Resolution and Appeals. According to 20 CFR, Part 627.485, JTPA
grants should normally have been closed within 90 days after the time limitation for expenditure
of JTPA funds. For PY 1997 grants, the 90-day limitation expired September 30, 2000.
However, in certain instances, ETA extended the reporting beyond that specified in the program
regulations. According to instructions set forth by ETA in the JTPA Financial Closeout
Technical Assistance Guide, final JTPA financial reports for PY 1998 and PY 1999 grants should
have been submitted no later than December 31, 2000.

Objectives, Scope and Methodology

In general, our procedures were designed to determine if: the State of Texas closed its JTPA
grants on a timely basis in accordance with ETA instructions; amounts reported in the closeout
packages and/or the final cost reports were reasonable and supported by the State=s and
subrecipients’ accounting records; and there were unresolved audit findings pertaining to JTPA
awards.

Our agreed-upon procedures include the JTPA funds awarded to the State of Texas for PYs 1997,
1998 and 1999, and FYs 1997 and 1998. Procedures were initially applied to grant activities
reported by the State and two subrecipients, Alamo Workforce Development, Inc. and Upper Rio
Grande Workforce Development Board, on final closeout reports.




                                               3
                            PROCEDURES AND FINDINGS


1.   Identify the State’s JTPA grants to be included in the scope of these procedures, and
     the obligations and final reported expenditures related to each.

     The JTPA grants awarded to the State of Texas and included in the scope of these
     procedures are as follows (expenditure numbers based on amounts reported on final
     closeout package):

                                                 Per Grantee Closeout
                           Federal                                                     Net
                          Obligations      Total Reported       Inter-title        Expenditures
      Year and Title      Authority         Expenditures        Transfers         (Computed)
      FY 97 II B          $ 71,921,100       $ 71,921,100       $(4,926,977)       $ 66,994,123
      PY 97 II & III        165,725,204          167,340,987     (6,318,134)        161,022,853
      FY 98 II B             72,501,450           66,173,671       6,318,134         72,491,805
      PY 98 II & III        169,847,254          139,929,819                  0     139,929,819
      PY 99 Adult           152,286,440            7,713,116     (1,000,000)          6,713,116
      PY 99 Youth            84,115,891           58,858,107       1,000,000         59,858,107
       Total               $716,397,339      $511,936,800       $(4,926,977)       $507,009,823



2.   Determine if the JTPA grants awarded to the State were closed on a timely basis in
     accordance with ETA instructions.

     The Texas Workforce Commission (TWC) submitted a request for extension of its
     closeout package through October 31, 2001, which was verbally approved by ETA.
     According to State officials, the request was necessary due to outstanding issues
     regarding reconciliation of cash position, and collection of obligation, expenditure and
     property information by the TWC and its subrecipients. The closeout was dated October
     31, 2001 and submitted to ETA on November 2, 2001.

3.   Inspect the closeout information reported to ETA, and determine if the information
     was reasonable based on data previously reported on final FSRs.

     We compared the expenditure information reported on the closeout to that reflected on
     previously submitted final FSRs, and noted only minor changes as follows:




                                             4
                             Expenditures          Expenditures        Increase
        Year and Title      Per Final FSRs         Per Closeout       (Decrease)
        PY 97 IIB             $ 70,866,494         $ 71,921,100       $1,054,606
        PY 97 II & III         167,342,853          167,340,987            (1,866)
        FY 98 IIB                66,126,399          66,173,671             47,272
        PY 98 II & III         139,951,844          139,929,819          (22,025)
        PY 99 II & III            7,582,660           7,713,116           130,456
        PY 99 Youth              58,830,917          58,858,107             27,190
          Total               $510,701,167         $511,936,800       $1,235,633

     Accordingly, the amounts reported on the closeout package are considered to be
     reasonable in comparison to amounts previously reported on final FSRs.

4.   Determine if amounts reported on final cost reports or on the closeout package were
     supported by the State’s accounting records.

     We compared the JTPA expenditures reported to the DOL on the closeout package to
     expenditures recorded in the State’s accounting records, and found that the amounts
     reported reconciled to the State’s official records.

5.   Select a sample of eight final closeout reports submitted by subrecipients to the
     State, and determine if the subrecipients’ final JTPA expenditures were accurately
     recorded in the State’s accounting records.

     We obtained closeout reports submitted to the State by eight subrecipients, and compared
     the final expenditures reflected on the closeout reports to expenditures recorded in the
     State’s accounting records. In all cases, the final subrecipient expenditures were
     accurately recorded in the State’s accounting records.

6.   Obtain the State’s single audit reports submitted for the two most recent fiscal years
     available, and identify the JTPA expenditures reported on the Schedule of
     Expenditures of Federal Awards. Determine if these funds were tested as a major
     program, in accordance with single audit requirements.

     We obtained the State’s single audit reports for SFY 1999 and SFY 2000, and identified
     the total JTPA expenditures reported on the Schedule of Expenditures of Federal Awards
     (SEFA), $237.9 million and $32.7 million, respectively. The JTPA program cluster was
     listed as a major program for both fiscal years.

7.   Determine if the single audit reports identified reportable conditions, material
     weaknesses, report qualifications, or any other audit issues pertaining to JTPA
     grants that remain unresolved.




                                              5
      The State’s annual single audit report for SFY 2000 (most recent available) included only
      one prior year reportable condition relevant to the JTPA program which was considered
      unresolved as of the date of that report (April 2001). In this finding, the single auditors
      found that certain equipment purchased with Federal funds by the University of Texas at
      El Paso, including funds for the Dislocated Workers Program, could not be located, and
      that other property was not tagged. The Auditors indicated that they would follow up on
      the finding in the subsequent fiscal year.

8.    Obtain the final cost reports submitted by two subrecipients and determine if the
      amounts reported were supported by the subrecipients’ accounting records.

      We visited two subrecipients, the Alamo Workforce Development, Inc. and the Upper
      Rio Grande Workforce Development Board. For each subrecipient, we compared the
      final JTPA expenditures reported to the State to expenditures recorded in the
      subrecipients’ accounting systems, and found that the amounts reconciled.

9.    Obtain the subrecipients’ single audit reports and identify the JTPA expenditures
      reported on the Schedule of Expenditures of Federal Awards. Determine if the
      amounts agree or were reconciled by the single auditors to the expenditures
      recorded in the accounting records.

      We obtained the single audit reports for the two subrecipients selected and identified the
      JTPA expenditures reported on the SEFA. We compared JTPA expenditures reported on
      the SEFA to those recorded in the subrecipients’ accounting records, and found that the
      amounts reconciled.

10.   Inspect the single audit reports submitted for the subrecipients and determine if
      there were reportable conditions, material weaknesses, report qualifications, or any
      other audit issues pertaining to JTPA grants that remain unresolved.

      We obtained the single audit reports for the two subrecipients selected. The reports did
      not identify any unresolved reportable conditions, instances of noncompliance, report
      qualifications or other audit issues that pertained to the JTPA program.




                                               6
                                                                              EXHIBIT I

                         THE COMPLETE TEXT OF
                      TEXAS’ RESPONSE TO THE DRAFT
                     AGREED-UPON PROCEDURES REPORT




Following this title page is the complete text of Texas’ response to our agreed-upon
procedures report, issued to them on February 13, 2003.




                                        7
8
